<html>
<title> - NO ABDUCTED CHILD LEFT BEHIND: AN UPDATE ON THE GOLDMAN ACT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


       NO ABDUCTED CHILD LEFT BEHIND: AN UPDATE ON THE GOLDMAN ACT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 11, 2018

                               __________

                           Serial No. 115-121

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                
                                 
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-692PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f295829db2918781869a979e82dc919d9fdc">[email&#160;protected]</a>                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Suzanne Lawrence, Special Advisor for Children's Issues, 
  Office of Children's Issues, Bureau of Consular Affairs, U.S. 
  Department of State............................................     5
Ms. Patricia Apy, international and interstate family law 
  attorney, Paras, Apy, and Reiss................................    31
Mr. James Cook, father of four children abducted in Japan........    42

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Suzanne Lawrence: Prepared statement.........................     8
Ms. Patricia Apy: Prepared statement.............................    37
Mr. James Cook: Prepared statement...............................    45

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  ``The Case for Reciprocity,'' by Patricia Apy..................    68
  Dr. Samina Rahman submission for the record....................    76
Written responses from Ms. Suzanne Lawrence to questions 
  submitted for the record by the Honorable Christopher H. Smith.    84

 
      NO ABDUCTED CHILD LEFT BEHIND: AN UPDATE ON THE GOLDMAN ACT

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order, and good 
afternoon to everybody. Thank you for being here.
    I would just like to make one introduction. Sue Kiley, 
who's the mayor, now deputy mayor of Hazlet, and her husband, 
three decades on the police force as well as number two there, 
is also with us today.
    I want to thank them for joining us and would like to thank 
all of you for being at this hearing, which is one of a large 
number of hearings we have held on child abduction and pretty 
much a series on it.
    And, of course, we will be focusing on this afternoon a 
continuing and excruciatingly painful crisis of international 
parental-child abduction and what the Trump administration can 
and must do to stop it.
    As many of you here today have experienced, international 
parental-child abduction rips children from their homes and 
whisks them away to a foreign land, alienating them from the 
love and care of a parent and the family that has been left 
behind.
    Child abduction is child abuse and continues to plague 
families across the United states and, really, around the 
world.
    According to the U.S. Department of State and their 
statistics, almost 800 children are today held hostage in a 
foreign country, separated from their American parent.
    Several hundred additional children join their ranks each 
and every year. If past is prologue, only 16 percent of these 
children will be returned to the United States.
    In 2014, Congress adopted legislation that I wrote known as 
the Sean and David Goldman International Child Abduction 
Prevention and Return Act, Public Law 113150, to change the 
status quo.
    Its template was the Trafficking Victims Protection Act and 
the International Religious Freedom Act, and on the former I 
was the author of that.
    Frank Wolf authored the International Religious Freedom Act 
and what we did was come up with ways of holding countries to 
account, and then prescribing a series of increasingly strong, 
or stronger, sanctions to try to change the behavior of 
offending countries.
    Since 2014, we have seen the reduction in new abductions of 
children but not an increase in percentage of returns of 
ongoing cases. Despite the new legislation, the State 
Department has persistently refused to use the return tools 
contained in the Goldman Act as envisioned by Congress.
    Moving beyond letters and meetings, the Goldman Act is an 
enforcement tool for the Hague Convention on the civil aspects 
of international child abduction and leverage for return 
agreements with non-Hague countries.
    The Goldman Act takes the lessons again from not only other 
legislation but from the successful return of Sean Goldman from 
Brazil and lays out actions like delaying or canceling of one 
or more bilateral working meetings or state visits, the 
withdrawal limitation or suspension of U.S. development, 
security, or economic support assistance and extradition.
    To my knowledge, extradition has been used only once and 
the other options not at all. The Obama administration said in 
the past that sanctions will not work.
    But in one case where sanctions were employed by Congress, 
they worked, and they've certainly worked in other programs 
both domestically and internationally and, frankly, all of our 
civil rights laws have enforcement that includes significant 
sanctions and that has worked as well.
    The inaction by the Obama administration has been noted and 
challenged. On February 14, 2017, 1 month into the new Trump 
administration's tenure, Japan's Minister of Foreign Affairs, 
Kishida, noted in the Diet discussion of abduction that, and I 
quote him, ``Until now, there is not a single example in which 
the U.S. applied the Goldman Act sanctions toward foreign 
countries.''
    He went on to note that, ``According to the United States, 
Japan is not included in the category of the noncompliant 
countries.'' In other words, no fear. Hasn't been used, will 
not be used, and Japan is off the list.
    Three days later, the Osaka High Court overturned a return 
order for the four American children of James Cook, who will be 
testifying today, in flagrant violation of the Hague 
Convention, Japan's own Hague implementation guide, and U.S. 
law.
    The court has reopened the case because Mr. Cook has moved 
into an apartment after the enormous legal bills from years in 
court in Japan.
    When did sharing a bedroom with a sibling--and this is 
something that has become part of his concerns--become a grave 
risk to a child's physical or psychological wellbeing? It's 
not, and yet that now is being thrown in his face.
    I believe and I urge the new administration to do more on 
behalf of these parents and especially on behalf of these 
children.
    At least 300 to 400 children have suffered abduction from 
the United States to Japan since 1994 and more than 35 
currently wait reunification with their American parent. Most 
of these are left over from the previous administrations.
    In almost all cases, the child is completely cut off from 
contact with the left-behind parent. Most have aged out of the 
system without ever being reunited with their left-behind 
parent and, of course, then that's a closed case.
    Some parents have won in court only to find that Japan's 
law enforcement could not return their children unless the 
taking parent agreed to abide by the decision and the taking 
parent did not.
    That is underscored in James Cook's testimony today, if I 
can find it. It certainly will make the point and it's worth 
repeating what he will be telling us shortly.
    Numerous enforcement attempts have been made in Japan using 
all legal means of enforcement--talking about his own case--
starting in February 2016 through September 2016. All attempts 
were unsuccessful.
    At the heart of Japan's enforcement articles for Hague is 
required voluntary compliance from abductor for enforcement. 
When abductors says no, the enforcement ends. In contrast, if 
we were to go to see our children in Japan without permission, 
I risk arrest and being held for 23 days in jail before any 
changes need to be filed, after which I could be denied entry 
into Japan in the future.
    This is just one example he points out of systemic 
deterrents against left-behind parents attempting to have a 
relationship with their abducted children or effectuate foreign 
court ordered returns.
    So enforcement, even when the courts do the right thing, 
enforcement stands out like the sword of Damocles that says 
there is no way you're getting your child to come back.
    The systemic non-enforcement of access and return orders is 
so bad in Japan that 26 EU countries recently issued a joint 
demarche to Japan asking Japan to fix the problem.
    Although non-enforcement has plagued many U.S. cases, the 
U.S. did not join in that demarche. However, in the upcoming 
Goldman report, the U.S. has the chance, the opportunity, to 
hold Japan accountable for its failures in the Cook case as 
well as so many others, like that of the Elias children taken 
from my home state of New Jersey after their mother obtained 
duplicate passports from the Japanese consulate in 
contravention of a judge's order in New Jersey.
    The report can and must better reflect the reality of the 
child abduction issue and the suffering of American children 
separating from their American parent every day in Japan.
    According to the Goldman Act, the country can find itself 
on the noncompliance list and eligible for sanctions if the 
country regularly fails to enforce return orders in Japan.
    The State Department should also put the country on the 
list if the judiciary fails to properly apply the Hague 
Convention, as we have seen in the Cook case in the past.
    Finally, a country should be put on the noncompliance list 
if 30 percent of more of the cases in the country are 
unresolved or cases that have been pending for more than a 
year.
    Notably, the definition of an unresolved case makes no 
mention of a country's Hague status. In other words, all of the 
cases that began before Japan's ascension to the Hague 
Convention and that were communicated to the Japanese 
Government should be counted against Japan.
    No child should be left behind. We received assurances from 
the State Department years ago as they myopically pursued 
Japan's ascension to the Hague Convention, knowing that the 
convention would not cover the existing cases grand fathered 
out of more than 50 children that they would not leave these 
children behind--that they would find ways to resolve those 
cases.
    How many of these children have come home 4 years later? 
How many have even had access to their left-behind parent. 
Almost zero.
    The Goldman Act directed the State Department to develop an 
agreement with Japan for the previous children that were 
already abducted. The Goldman Act made a way for the State 
Department to hold Japan accountable for these cases.
    Four years later, we have no agreement, no MOUs with Japan 
for these cases. We have no action against Japan for these 
cases or current cases and we have yet to see the department 
even list Japan as noncompliant in the annual report.
    Every day these children are separated from their U.S. 
parent the damage compounds. It's bad in the beginning. It gets 
worse, gets worse, then gets even worse.
    As the State Department's own 2010 report on compliance 
with the Hague Convention on the civil aspects of intentional 
child abduction observes,

          ``[A]bducted children are at risk of serious 
        emotional and psychological problems. Research shows 
        that recovered children often experience a range of 
        problems including anxiety, nightmares, mood swings, 
        sleep disturbances, aggressive behavior, resentment, 
        guilt, and fearfulness.
          ``As adults, individuals who have been abducted as 
        children struggle with identity issues, personal 
        relationships, and experience problems in parenting 
        their own children.''

    We must do better by our children. We must not leave any 
abducted child behind. Congress is currently looking at new 
ways to put pressure on countries with low resolution rates, 
like Japan, Brazil, and India.
    Last year, I introduced H.R. 3512, the Bindu Philips and 
Devon Davenport International Child Abduction Return Act of 
2017, to amend the generalized system of preferences system so 
that any country named as noncompliant would use their trade 
benefits.
    The loss of trade preference would be automatic and not 
dependent of the administration choosing to apply sanctions. 
Currently 11 of the 13 noncompliant countries receive trade 
benefits from the United States. That has got to change.
    In addition, I am working on a bill that would limit H-1B 
and other business visas for countries that have low abduction 
resolution rates and, again, that would affect Japan, Brazil, 
and India, among others.
    We have 13 egregious long-term cases pending in Brazil 
including Dr. Brann and Davenport cases. More than 90 American 
children were separated from their American parent in India. 
India will not even appoint a person to receive the 
applications and they have refused to join the Hague 
Convention.
    We asked in our hearing last year when is enough enough. We 
hope that the State Department will do its job and implement 
the Goldman Act robustly.
    We hope the Trump administration will be different than the 
last administration. But we are--so I do--would like to yield.
    We are joined by Dr. Harris of Maryland and I thank you for 
being here. I'd like to now introduce our first witness. We 
have two panels today, beginning first with Ms. Suzanne 
Lawrence, who is the new Special Advisor for Children's Issues, 
having assumed the role late last year.
    Ms. Lawrence has previously served as the Deputy Chief of 
Mission at the U.S. Embassy in Athens, Greece, and as a Senior 
Advisor for the Assistant Secretary in the U.S. Department of 
State's Bureau of Consular Affairs.
    Her career at U.S. Foreign Service has given her a wide 
breadth of experience to apply to child abduction cases and we 
are very grateful that she's here and look forward to her 
tenure in office, and without objection her full resume will be 
made a part of the record.
    Ms. Lawrence, the floor is yours.

    STATEMENT OF MS. SUZANNE LAWRENCE, SPECIAL ADVISOR FOR 
   CHILDREN'S ISSUES, OFFICE OF CHILDREN'S ISSUES, BUREAU OF 
           CONSULAR AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Lawrence. Thank you.
    Chairman Smith, other members of the subcommittee, thank 
you for the opportunity to speak about the work we do to 
prevent and resolve international parental-child abduction. My 
written statement, which I ask to be entered into the 
congressional record, provides----
    Mr. Smith. Without objection, so ordered.
    Ms. Lawrence [continuing]. Comprehensive review of our 
accomplishments and challenges. I will highlight the most 
critical of these in my opening statement. Allow me first to 
take a moment to thank Ms. Patricia Apy and Mr. James Cook for 
their commitment to our shared objectives.
    I also want to acknowledge the parents who are here today 
and who work to resolve their cases with my colleagues in the 
Office of Children's Issues.
    I have had the pleasure of meeting many of them in the past 
7 months. My colleagues and I are encouraged by the continued 
interest and support from the American public and from 
Congress. As we advocate on behalf of the children and parents 
affected by the heartbreak of abductions, congressional 
involvement and oversight are unique tools we can use in our 
diplomacy.
    The 1980 Hague Abduction Convention remains one of the best 
methods for resolving abduction cases. Over the past 10 years, 
more than 4,500 children have returned to the United States.
    Further, the existence of the convention's return mechanism 
has deterred an untold number of abductions, and we are 
heartened to see the number of new abductions reported to the 
Department of State has declined by more than 60 percent over 
the past 10 years.
    Allow me to mention three examples of the effectiveness of 
the convention. From 2014 through 2016, 95 percent of abduction 
cases to the United Kingdom, one of our biggest partners in 
terms of cases, closed in less than 1 year.
    In Mexico, our largest convention partner, more than 73 
percent of abduction cases were closed within 1 year, and more 
than 340 children returned to the United States from 2014 
through 2016.
    And in Japan, there has been a 46 percent decrease in 
reported abductions since 2014. There is additional detail on 
the convention's successes in my written statement, and these 
outcomes underscore our goal to encourage all countries to join 
and properly implement the convention.
    The Sean and David Goldman International Child Abduction 
Prevention and Return Act has supported our efforts to promote 
accession to, and implementation of, the convention.
    For example, since 2014, seven countries that previously 
did not adhere to any established protocols to resolve 
abduction cases have acceded to the convention, and we are in 
the process of moving toward partnership with some of these 
countries.
    We have also welcomed five other countries into our 
community of convention partners, which now include 77 members 
committed to the shared purpose of resolving child abduction.
    In countries where the convention has not been embraced, we 
turn to other tools. Non-convention cases are extremely 
complex, and we work with left-behind parents, interagency 
partners, and foreign counterparts to resolve those cases.
    Since my arrival in September of last year as the Special 
Advisor for Children's Issues, I have traveled the Hague, to 
India, to Japan, and to South Korea to personally engage in 
elicit cooperation.
    In India, I urged the government find a resolution for the 
many abducted children located there and for India to join the 
convention.
    In Japan, I raised our concerns about the enforcement of 
convention court orders and also urged the Government of Japan 
to find a resolution for the children involved in pre-
convention cases.
    In South Korea, I addressed potential areas of improvement 
in their handling of convention cases and explored 
opportunities to strengthen multilateral efforts to advance the 
convention in that region, and at the Hague, I worked with the 
Hague Permanent Bureau and representatives from dozens of 
member countries to improve implementation of the convention 
around the globe.
    The act has also bolstered our ability to manage a robust 
prevention program which continues to be a key priority.
    In 2017, we enrolled over 4,000 children in the Passport 
Alert program, which is a 13 percent increase from the previous 
year, and thanks to the act, the department continues to meet 
biannually with the Interagency Working Group, which has had a 
daily direct impact on preventing abductions and has improve 
the U.S. Government's response to combating abduction.
    In conclusion, Mr. Chairman, please be assured that the act 
has significantly reinforced our work to address international 
parental/child abduction around the world.
    We constantly strive to increase our effectiveness and 
always look for ways to collaborate with our partners, 
including you, Members of Congress, who have committed so much 
time and energy to addressing this very important and urgent 
issue.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Ms. Lawrence follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. I thank you so very much.
    If I could, Ms. Lawrence, if you could tell us--you said 
you raised with India and Japan, other countries. What was 
India's response when you raised it? When you spoke in Japan 
not only about Hague cases since they have become--acceded to 
it but all the pre-Hague cases, the legacy cases, what was 
their response? What did they say they were going to do and did 
you do it by name? Did you raise specific cases?
    Ms. Lawrence. Thank you for that question, Mr. Chairman. 
I'll start with India. So I was in India in February, and I met 
with a number of staffers before I went to India to discuss 
some of the issues that we have had.
    When I was there, I was joined, of course, by the team at 
our mission there, and I know that that has been a concern 
previously to have our chiefs of mission, our Ambassadors 
engaged, and I can assure you that Ambassador Juster has taken 
this onboard from the time he arrived to take up his 
responsibilities there through today, and he will continue to 
advocate on behalf of the families that are, tragically, 
affected by this issue.
    He had meetings with Minister Gandhi, who is the head of 
India's Ministry for Women and Child Development, and when I 
traveled to India it was, hopefully, to build on some of the 
momentum that we felt the Indian Government was showing with 
regards to accession to the convention and also with the 
willingness to work with us on those pre-convention or the 
current cases.
    I met with a range of individuals. I was in Chennai. I was 
in Delhi. I spoke with the attorney general for India. I spoke 
with members of the judiciary. I spoke with Minister Gandhi at 
the Ambassador's residence.
    I spoke with opponents to the convention, proponents of the 
convention. It is an issue that we will not stop advocating 
for.
    We have engaged with--as you know, the Chandigarh Committee 
was the committee that the Indian Government put together to 
investigate a recommendation that they would make to the Indian 
Government about accession to the convention.
    We have spent several hours answering questions with the 
Chandigarh Committee. I spent another hour-plus with the 
Chandigarh Committee via digital video conference, again 
addressing some of the myths that persist about the types of 
cases we are talking about and also about what the convention 
actually means.
    So we did have a range of meetings. We had them at the 
highest levels of the government. Ambassador Juster has raised 
this at the highest levels of the government, and we are told 
that they are still considering accession to the convention.
    With respect to the cases that we have now, we have offered 
to the Indian Government to sit down and meet on all of those 
cases individually and, again, in my conversations I have 
emphasized that if we sat down and looked through all of those 
cases, that in and of itself would inform them of the scope of 
the problem and perhaps open up some areas where they could 
work productively to resolve some of these cases.
    Without the convention or any other protocols in place for 
these cases, the parents are left to pursue their custody of 
abducted children in the Indian courts and typically the 
resolution of custody cases in India has been slow.
    Indian courts generally do not order the return of abducted 
children to the United States, and in general, custody is given 
to the taking parent and the parents are left really to pursue 
their matter in the court system which has not been a very 
effective method.
    So that is the short answer of my time spent there. I 
believe you also asked about Japan. In my travels there, again, 
I will say that Ambassador Hagerty has also been very engaged 
in this issue.
    He has raised this issue at the highest levels appropriate 
to him in the Japanese Government. I have myself met--I've been 
in this position for a little over 7 months. I've had four 
occasions to meet with the head of the Central Authority in 
Japan.
    And while, as I did in my opening statement, I have 
acknowledged that the number of cases has gone down since Japan 
acceded to the convention and that we have a very productive 
working relationship with the Central Authority, there are 
still problems with enforcement of judicial orders.
    When you cannot enforce those orders, it undermines 
confidence in the system and it does not bode well for the 
future of the convention with respect to Japan.
    So I met with, again, the Central Authority there.
    I met with the Ministry of Foreign Affairs to talk about 
the pre-convention cases. They are well aware of which cases 
those are.
    We meet regularly with them to review that they have the 
correct cases that we consider to be open pre-convention cases 
and, again, we are in some--to some degree stymied by the 
fact--and I know the parents who are affected by these pre-
convention cases are reluctant, under the convention, to even 
file an access case because they also feel that in the instance 
where there might a judicial ruling that would give them some 
sort of access that the enforcement of that ruling also would 
be ineffective or not take place.
    So I have made those concerns known. The Ambassador has 
made those concerns known. We also met with the officials from 
the Indian Embassy and the Japanese Embassy here in Washington 
to deliver those same messages.
    Mr. Smith. What's your take on the Foreign Minister saying 
how did the department respond to his comments that they are 
not going to be put on the list of noncompliant countries, 
there has been no enforcement, no sanctions meted out as they 
should be?
    You know, when a country shows such a pattern of 
noncompliance, the decision to enforce it ought to be almost 
automatic.
    There can be mitigating circumstances. We all know that. 
But in Japan's case, they are gaming the system. And so your 
answer to that, and also Mr. Cook's comment about the required 
voluntary compliance from the abductor for enforcement to 
occur, when the abductor says no he will write and say 
enforcement ends.
    That seems to be--I have to say when the previous 
administration kept arguing that if they just signed the Hague 
our problems will go away and the legacy cases would take care 
of themselves.
    There would be a good will that would be generated and 
would lead to resolution and not resolution by way of aging out 
so it's no longer a case that we look at.
    I traveled with Mike Elias' mother and father to Japan, 
raised all of these issues and said, look, to me it seems like 
the nose on my face it's so stark, looking in the mirror.
    You can't get away from it that, one, the past cases will 
be treated with even more prejudice than before if they sign 
the Hague and that when they get to enforcement they are going 
to do it in a way that it's like Swiss cheese and it won't 
happen.
    All of that has happened. I am not a prophet, but it seemed 
very clear from the conversations and from their past very 
quickly becoming a prologue.
    So this idea of required voluntary compliance from the 
abductor for enforcement, to me, that's outrageous that a 
country, a great country like Japan, would use that kind of 
impediment.
    That makes all the Hague cases, you know, moot. It's going 
to be, you know, a voluntary--you know, yes, you can have the 
children back. So why do you even need the Hague except for a 
nice backdrop to say, look, we have got a treaty and a 
convention.
    So if you could speak to those two, and again, when you 
talk about Michael Elias, one of the concerns that many of us 
have had, and we have this with several of our left-behind 
parents, as you know, these are military men and women who are 
deployed to Japan for the defense of Japan in Okinawa, in 
Yokohama, and other places.
    And then their child was abducted and then they ran into 
this buzz saw of opposition from a government that if Japan 
isn't put on the noncompliant list this year, I can't tell you 
how egregious that will be not to see that happen, and then 
followed very quickly thereafter with serious sanctions.
    You know, if President Trump--because Obama wouldn't do it 
so let's lay that aside--and I found that to be outrageous--but 
if President Trump can levy sanctions on China and talks 
sanctions, NAFTA--renegotiating NAFTA on economic issues and if 
our aluminum industry and steel and other things are so 
important, which they are, how about for people, for American 
children who've been abducted.
    That, to me, is in a class of its own, a league of its own, 
and there needs to be--if ever there was an America first, this 
looks like this is one of them--it's the children. It's their 
parents.
    So I would appeal to you because it starts with what your 
findings will be and then, obviously, it goes up the chain of 
command as to what they finally do.
    But it seems to me it's a no-brainer. It's been a no-
brainer. This year it's got to be.
    Ms. Lawrence. Thank you, Mr. Chairman.
    We share your concerns, as I said, about Japan's failure to 
enforce convention court orders and in many of my meetings I 
don't only talk about the convention writ large or the issue of 
parental-child abduction.
    But I do take it to that personal level. As you have 
referred to, these are people, these are their lives, and 
people need to be reminded that for someone who has not seen 
their child in a day, a week, a month, years, this is a life or 
death matter.
    This is a very important life-altering event, and we owe it 
to all of these children, all of these families, to continue to 
press where we need to press.
    When a Japanese parent--taking parent refuses to comply 
with the return order, we have found that Japanese authorities 
have very limited means to enforce the order and we have worked 
to broaden the discussion to different parts of the Japanese 
Government.
    But it will require some changes in their domestic 
legislation to give law enforcement the kind of power you're 
talking about in terms of enforcement.
    And we have--we have raised our concerns about enforcement 
failures at the highest level. This year, the relevant entities 
across the Japanese Government have heard our call to take a 
whole-of-government approach, and they have brought others to 
the table, and we have had a chance to talk to those agencies 
about the needed legislation to improve their enforcement of 
court orders.
    With respect to citations, we can't, of course, discuss the 
individual country citation before we give the report to 
Congress and it's published.
    But I can assure you that we have had a number of 
conversations about how those decisions are made and 
enforcement of convention court orders is a component of the 
Hague Convention.
    Your compliance with the convention also depends on your 
enforcement of court orders, and the department will most 
certainly take into account Japan's enforcement failures in 
this year's ICAPRA report.
    Mr. Smith. Patricia Apy, who is the brilliant lawyer who 
was the lawyer for David Goldman--the American lawyer who just 
did a wonderful job in helping to make his reunification with 
this son, Sean, possible, she's testifying today and in her 
comments notes, and I'd appreciate your reaction to this, prior 
to the enactment of the treaty--this is regarding Japan--
parents who had pending abduction matters were sent from time 
to time urgent time-sensitive updates, repeatedly promised that 
the Hague ratification would enable them to at least secure 
access to their children. The promises were entirely 
illusionary.
    Now, those memos came from OCI, and I am wondering, how do 
you respond to that? I mean, here's what the parents tell me, 
and I meet with so many of them.
    They get frustrated. They know that there are good people 
working--you and the others are wonderful people. But you do 
have the tools with the Goldman Act and it seems like those 
tools stay in the toolbox.
    We were just talking about access here, not even 
reunification and bringing those children back home.
    Your thoughts on that?
    Ms. Lawrence. Thank you, Mr. Chairman.
    We have already discussed a little bit about the pre-
convention cases. But, again, we do continue to work with the 
parents who are--there are approximately 20 preconvention cases 
that remain active and we work with the left-behind parents to 
see which methods or avenues they might have available to them.
    As I said too in my written statement approximately half of 
those left-behind parents have achieved some access. It's 
limited. Sometimes it's a Skype call. Sometimes it's an 
exchange of letters and gifts.
    We know of one parent who has had an in-person visit. Going 
back to what we just spoke about, if you're a parent, that's 
your child, is that adequate?
    That is not adequate. However, we continue to press, again, 
on this enforcement issue because I think a lot of parents are 
put off by the idea that even if they pursued an access case 
under the convention, their sense is there may be no effective 
mechanism to enforce the court order for access.
    And so, again, what I am saying to you here about access, 
about these parents, about their disappointment, is what I have 
said to Japanese officials and we will continue to say that, 
and I appreciate your support in carrying that method forward.
    Mr. Smith. Well, again, putting Japan on the list and then 
enforcing it with sanctions will send the message that none of 
our words can possibly achieve.
    So that the Foreign Minister, so that the Prime Minister 
cannot, in their meetings, or even as he did before the Diet, 
claim accurately that there has been non-enforcement and they 
are not on any list.
    I can't stress that enough. It would be negligence of the 
highest degree to leave them off the list, given their track 
record, which is abominable.
    I mean, if this were reversed and the U.S. was doing this, 
I could tell you I'd be holding hearings on that and pressing 
our own Government to, in the sense of reciprocity and good 
governance, to hold ourselves to account.
    And what we do in not putting them on the list has bearing 
with what the judges will do when they get a case before them. 
They will say, well, I guess Japan's not so bad.
    And what's your sense on that? So it's not only is the risk 
factor to a potential abduction very high if the judges get the 
wrong information about a specific country, including Japan.
    Ms. Lawrence. Thank you, Mr. Chairman.
    I've had a lot of opportunity to consider the efficacy of 
the report in and of itself as I travel around, as I meet with 
other countries, and it's a really powerful tool. The 
convention is a powerful tool. The report is a powerful tool.
    As far as I am aware, we are the only country that produces 
a report like that, and I know what you mean by sanctions, but 
I can say that in my meetings very often the foreign 
counterparts will bring the report up.
    And I agree with you that the citations in the report can 
have very positive effects in terms of the actions that a 
country will take.
    Sometimes it takes a while. But I do think that the report 
is an extraordinarily valuable tool and for some countries they 
believe they are being sanctioned by having their--the citation 
in the report.
    And, of course, beyond the citations there are narratives 
in there that really talk about performance and countries are 
very keen to see how that will be characterized in the report.
    So I do believe that we have some tools at our disposal 
that are very meaningful to these countries.
    Mr. Smith. Ms. Jayapal.
    Ms. Jayapal. Thank you, Mr. Chairman. Thank you for having 
me here. Thank you for having this hearing and I want to thank 
you for your years of work on this important issue.
    I think we all understand that there are many of us that 
are deeply concerned and we are grateful to the State 
Department for your efforts over the years and I want to 
especially just recognize the families in the room that some of 
you have traveled.
    I know, as a mother, I cannot imagine the pain of what you 
have gone through and I want to thank you for continuing to be 
here and continuing to push for us to resolve these situations 
to bring children home to their--safely into their loving 
families.
    I was introduced to this issue--I am new to the issue but I 
was introduced to it by my constituent, Jeffrey Morehouse, who 
has been fighting for the return of his kidnapped son, Mochi, 
since Father's Day of 2010, and that was the last time that Mr. 
Morehouse saw or heard from his son.
    And despite having custody of his son under Washington 
State law since 2007, a mutual agreement with his ex-wife that 
she would not travel outside of the state or get a passport--an 
agreement that the United States is actually Mochi's home 
country--that was all outlined in this agreement--and the 
jurisdiction for any custodial dispute, Mochi was still 
abducted.
    And Mr. Morehouse even took the preemptive step of 
notifying all of the Japanese consulates and their Embassy in 
the U.S. in writing that he was the custodial parent and 
requested that they deny any requests for a passport for Mochi.
    However, in June 2010, as you may know, his ex-wife was 
provided a passport for their son by the Portland consulate so 
he went over our state's border into Oregon. He was provided a 
passport after being denied one by the Seattle consulate and in 
2014 and 2017 Mr. Morehouse then went and actually defended 
successfully his custodial rights in Japan where the courts 
ruled that his U.S. sole custody order is legal in Japan.
    His ex-wife has twice been denied custody rights under 
Japanese law and during proceedings she admitted to committing 
passport fraud and forgery in order to abduct Mochi to Japan.
    Mr. Morehouse is the executive director of Bring Abducted 
Children Home. He's come to Washington, DC, over a dozen times 
on his own case and the more than 300 U.S. children that have 
been kidnapped to Japan since 1994 when the Office of 
Children's Issues was formed.
    And yet for nearly 8 years he's been shuttling back and 
forth between Seattle and Japan all in vain, and there have 
been some small victories but really nothing that has resulted 
in his actually reuniting with his son.
    And so I just wanted to follow up on the chairman's 
questions and I apologize if you said some of this before I 
walked in the room.
    But my understanding is that we have provided in the 
Goldman Act a number of steps that can be taken and, obviously, 
the first of that is, you know, using the diplomatic channels.
    But there are others, and they go all the way up to formal 
requests to the foreign country to extradite somebody. But 
there is other things around an official public statement that 
details the unresolved cases. I guess that's our report.
    I don't believe we have done a public condemnation in any 
of these situations but perhaps you can educate me if we have, 
and I guess I am just--it seems clear to me from reading these, 
and I am, as I said, new to the issue but it seems clear to me 
that voluntary is not--is not going to produce the results we 
are looking for and that we can continue using diplomatic 
channels and we should. But we have provided other tools here 
for the State Department to utilize.
    And so I am just wondering what brings this issue to the 
threshold where--because we have already crossed the thresholds 
that are outlined in the Goldman Act, as I read it, and so 
how--what can you do differently to ensure, for example, that 
Japan is going to reunite Mr. Morehouse's son because I--my 
deep concern is that the more these different countries see 
that the United States is not using the tools, the easier it 
gets for these countries to continue to just say, well, we will 
just work through diplomatic channels, which really means 
nothing would move forward.
    And so if you can just help educate me about how you see 
that. What is the threshold to move from one step to another 
within the tools that we have given to you and what can we 
possibly tell our families about what we are going to do 
differently than what we have been doing because, clearly, that 
has not produced the results we are looking for.
    Ms. Lawrence. Thank you, Congresswoman.
    Again, with respect to Japan, as the chairman has pointed 
out, we pursued their accession to the convention--Mr. 
Morehouse's case is, clearly, pre-convention--and we have seen 
a result since they acceded to the convention in terms of a 
reduction in the number of reported cases and a resolution to 
the 2014 and beyond cases.
    We have actually, as a Central Authority to Central 
Authority, filed 18 cases with the Japanese Central Authority, 
and we have had resolution in 14 of those 18 cases. These are 
convention cases.
    Most of those have come through this voluntary mediation 
process. Again, we understand that enforcement of judicial 
orders is a failure, and it is something that we continue to 
work on.
    The Central Authority doesn't have, it seems, the power or 
authority to make changes that would make enforcements work, 
which means we have had to broaden--ask them to bring other 
people to the table.
    We do consider all the tools we have at our disposal, and 
we do that with our interagency partners and try to use the 
best tool at the best moment on a case-by-case basis.
    I hear your concerns about the use of the other tools, and 
we continue to speak with our interagency partners and the rest 
of the department who clearly have interests in our bilateral 
relationships with many of these countries, Japan included, and 
we know that we have those tools at our disposal and consider 
them when we think they will be effective.
    Ms. Jayapal. So what would--what would move--what would 
move the threshold in order to use those tools? I am still not 
clear on that, because I understand you're discussing with 
other agencies and maybe you could describe that a little bit 
more which are the agencies and departments that you routinely 
work with and are there some that have not engaged that need to 
be engaged?
    But I am just trying to understand what would be done 
differently now that has not been done before, because it's 
very difficult for us to go back to our constituents who 
actually have gone through everything that they could possibly 
go through, both here in the United States and, in some cases, 
in the country where their child has been abducted to.
    What more do we need to do to ensure that you utilize those 
tools and crossed that threshold from just pure diplomatic 
advocacy?
    And I do--I just want to, you know, echo and recognize the 
work that you all have done. I think you have made tremendous 
progress in a number of places and particularly on those post-
convention cases.
    But I feel like some of these--some countries are hiding 
behind that specific date and we are not getting resolution.
    Ms. Lawrence. And again, I think, Congresswoman, that from 
many countries' point of view, citation in the report would be 
considered a serious step, and it has resulted in some profound 
changes in many places.
    As I said, we wouldn't be able to talk right now about what 
citations will appear in this upcoming report, but we have had 
a number of conversations with our Japanese counterparts 
explaining our frustration with the lack of momentum on 
enforcement of orders.
    And in the case of Mr. Morehouse, because I've had the 
opportunity to meet with him a number of times, we have--the 
characterization of the history of his case is something that 
we have directly spoken with them about.
    So, again, we do our best to use the tools at our disposal. 
I don't have a specific answer for you on what the threshold 
is. We are one voice, one part of the conversation, and I will 
take back certainly the frustration from Members of Congress on 
not utilizing the full range of tools.
    And we do feel that we are getting results from a lot of 
our engagement, certainly from the annual reports and certainly 
from the engagement by our chiefs of mission including 
Ambassador Hagerty.
    They are the President's personal representative in that 
country and the chief of our bilateral relationship with that 
country, and I think their voice on these issues carries an 
enormous amount of weight.
    So we are working in the avenues that we think will produce 
the best results, and I take on board your point that you 
believe that there may be results from the use of other tools.
    At this point, the tools that we have employed and continue 
to employ have shown some results.
    Ms. Jayapal. You mentioned earlier that Japanese 
authorities--I think I wrote this down--Japanese authorities 
have very limited means to enforce the orders.
    That seems to me to be--you know, if they are saying that I 
think it feels a little perhaps not fully forthright--that 
there are many more things that could be done and it seems to 
me that if they need to hear that this is critically important 
to us that that's where that list of tools--and I don't want to 
continue to harp on this point but I just think that at some 
point we need to move down that list.
    Otherwise, the act is not really being implemented the way 
I think the chairman and others had envisioned when we put it 
into place because it is working on some but I think we need to 
really look at that whole piece and I hope you hear our 
frustration in not seeing, particularly on certain cases that 
have been in process for a long time, not seeing any results 
there and not having anything to advocate for our children.
    Ms. Lawrence. Thank you, again, for that question and also 
for expressing that level of dissatisfaction with the progress 
to date because it is useful when we sit down and talk about 
the lack of enforcement.
    Again, I think when the United States Government was 
pursuing Japan's accession to the convention we understood that 
there was quite a gulf in terms of the cultural norms and the 
way in which Japanese society viewed custody, and we knew that 
there would be a period of adjustment.
    When I say law, the Japanese Central Authority or the 
Ministry of Foreign Affairs is limited and also law enforcement 
is limited.
    It's the perspective of how they carry out these kinds of 
judicial decisions, and we have spoken about that, and I think 
the chairman referred to a letter earlier that a number of the 
EU countries sent.
    Again, there is nothing in existence even in their domestic 
law about these kinds of enforcements of judicial decisions 
with respect to custody that are useful at this moment and 
that's why, you know, we continue to implore them to look at 
ways to put into place domestic legislation that would also 
have an effect on these international cases and it's something 
that we continue to talk about and raise at every opportunity.
    So thank you again for sharing your perspective with me and 
your frustration on that level. It is helpful when we are 
talking to our counterparts to explain that this is felt 
throughout the U.S. Government and it is on behalf of our 
citizens and our--and your constituents that we bring these 
matters to their attention and ask that they do something to 
resolve the problem.
    Ms. Jayapal. Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you, Ms. Jayapal.
    Let me just note for the record, and I know you know this, 
Jeffrey Morehouse has done it by the book. He is so 
disciplined, like so many of the left-behind parents, dotting 
every I, crossing every T.
    He testified in May 2015 before our subcommittee--very, 
very comprehensive testimony he made. So thank you for raising 
his case.
    I'll go to Dr. Harris in 2 seconds--as you may know I am 
the author of the Trafficking Victims Protection Act. That has 
sanctions on it.
    When Israel and South Korea, two of our closest allies, 
had--were deemed to be Tier 3 egregious violators on human 
trafficking--they were worried about security assistance and 
other assistance, but particularly security assistance, being 
limited in some way.
    They change their laws. They enforced, in the case of 
Israel, existing law and they shut down the brothels and came 
into compliance within 1 year.
    Sanctions work, and if Japan doesn't get it through your 
persuasion--and I thank you for trying so hard--it is time to 
lower the boom, please, with respect, and say, you have failed 
utterly.
    These longer-term cases are egregious. These families are 
broken, and security assistance, as you know, in the Goldman 
Act is one of those sanctions that can be levied upon a 
country.
    Dr. Harris.
    Mr. Harris. Thank you very much, Mr. Chairman, and thank 
you for giving me the opportunity to be at today's hearing.
    And Ms. Lawrence, thank you for the work you do because, 
you know, there is some things where Americans have to look to 
the Federal Government as their one and only hope.
    There is just some issues that they--the Federal Government 
is the only thing that's going to solve their problems and this 
is one of those issues.
    So and we probably, you know, move a little broader than 
just Japan but, obviously, the Goldman Act lists a series of 
escalating actions that the State Department can take when an 
international child case--abduction case remain unresolved.
    But I am curious--just to run down some of these things to 
see if, you know, what tools in the toolbox have been used, has 
the State Department cancelled or delayed any state visits, 
bilateral working groups, or other official visits in response 
to any unresolved abduction cases in any country?
    Because that's one of the tools in the toolbox and that--
you know, that seems like a pretty simple tool because some of 
these nations I think need a bilateral working relation.
    So has the State Department done that in any case?
    Ms. Lawrence. I've looked through the list of tools--thank 
you, Representative Harris, for raising that. I am sure that 
there have been some meetings or other events that may have 
been canceled, but I cannot speak to the fact if they were 
canceled directly related to the issue of international 
abduction.
    So I would have to go back and really----
    Mr. Harris. If you can get back to me, that's fine. And, 
you know, I sit on the Appropriations Committee so, you know, 
we want to make sure that American taxpayer dollars are spent 
appropriately and according to the law, including the Goldman 
Act.
    So has the State Department limited or suspended U.S. 
development assistance in response to any unresolved abduction 
cases since the act was passed 4 years ago?
    Ms. Lawrence. I am not--I am not aware of us having used 
that particular aspect of the act.
    Mr. Harris. Okay. How about foreign assistance?
    Ms. Lawrence. Again, I am not aware of any instance where 
we have suspended foreign assistance in relation to the act.
    Mr. Harris. Okay. Even though you, clearly, have the 
ability? And the Appropriations Committee has never, you know, 
said you have to do it. But you've had the ability over the 
years, right?
    Ms. Lawrence. Correct.
    Mr. Harris. What about security assistance, which I think 
the chairman has spoken about in terms of Japan? But there are 
other countries where that is important.
    Ms. Lawrence. Again, I am not aware of where we have used 
that.
    Mr. Harris. Okay. The reason I am asking that is because 
one of my constituents, Stanley Hunkovic, has been fighting for 
the repatriation of his children since 2011. It's a case, by 
the way, that's mentioned in your annual report.
    His children, Gabriel and Anastasia, are American citizens 
who were abducted by their mother, Leah, and they are currently 
wards of the state in Trinidad and Tobago. So the issue of 
noncompliance with orders is kind of rendered moot because they 
are actually wards of the state.
    Now, he's not been able to see or speak to them in years 
and until very recently the State Department could not even 
confirm the children's whereabouts, much less their wellbeing.
    And that's despite the fact that, again, the Goldman Act 
has been in place going on 4 years now. Can you commit to me 
today that the State Department will use any and all means at 
their disposal to pursue the return of any and all abducted 
American children, including Gabriel and Anastasia Hunkovic, 
from any country to which they've been abducted including 
Trinidad and Tobago?
    Ms. Lawrence. Thank you, Mr. Harris, for that question and 
thank you for your interest in his case. I know that one of--
several of my colleagues will be meeting with you later this 
afternoon to discuss with you the latest developments in that 
case.
    Of course, this is a pre-convention case. Trinidad did join 
the convention, and we have had a productive relationship with 
them which, of course, does not take away from the pain that 
your constituent has expressed to you as he has worked through 
this very difficult situation.
    I absolutely will pledge to you that we do look at all the 
tools available. We will continue to consult with you. We will 
continue to consult with our interagency partners, with all of 
the stakeholders in the Department of State and use the tools 
that are most appropriate to get the best result.
    Mr. Harris. Well, let me--and thank you. No, thank you for 
that and, yes, I have met with people months ago and there is 
still no resolution.
    Of course, pre-convention is irrelevant because the Goldman 
sanctions apply to that case regardless of whether it's pre-
convention or post. Am I correct in that assessment?
    So that is--that makes no difference whatsoever, and the--
these children--it's now 7 years since they were abducted. They 
are wards of the state.
    The state actually has the legal authority over them. So I 
just don't understand and, again, I can see where, you know, 
compliance with orders and things like that are different in 
other cases.
    In this case, Trinidad and Tobago has the ability to decide 
what's best for these children consistent with international 
law and have not.
    So is it going to take literally an act of Congress in an 
appropriations bill to get you ramped up through the escalating 
sanctions that can occur in some of these countries that the 
State Department has been unwilling to pursue despite--again, 
this a 7-year-old case.
    You can only bang your head against the wall so many times 
til you realize you got to try something else. Is that what 
it's going to take?
    I mean, I'd like to think the State Department is going to 
use the tools in the toolbox. But, honestly, we have gone down 
the list.
    You know, cancelling state visits--you know, that's not--I 
mean, I know it's something that would get someone's attention 
but said you don't--you're not sure if that's ever even been 
done.
    These are serious cases and I am sure the State Department 
takes them seriously. But I am not sure you use all the tools, 
and, I mean, we have the same tools, to be honest with you.
    I mean, we can limit anything we want to do because these 
are American taxpayers. Is that what it's going to take?
    Are you really honestly going to say look, we are going to 
look at cases like this--7-year-olds, wards of the state. We 
have tried everything with Trinidad and Tobago. Seven years 
gone by.
    You know, that developmental assistance that you have been 
getting from us, which I am sure goes a long way in your 
country or that foreign assistance or that security assistance, 
I guess you just don't need it.
    Ms. Lawrence. Thank you, Mr. Harris, again for bringing 
attention to this case in this venue.
    I know that my colleagues look forward to speaking with you 
a little bit more deeply later this afternoon to go through 
whatever options might be available to Mr. Hunkovic.
    It is a long time. As we have said before, these are not 
just issues. They are people and they are their children and 
it's their lives and we take--we take that with us every time 
we go into these meetings.
    I know that you have had conversations with our Embassy 
there. I know you've had conversations with our office in the 
Western Hemisphere Bureau. I know you've had conversations with 
my colleagues in the Office of Children's Issues.
    We are all working together to try and find a way forward 
and I hope that we will find a way to help resolve this case. 
It has gone on too long.
    Mr. Harris. I couldn't agree more. I thank you. All that--
my point is, I guess, it may be time for conversations to end 
and, again, if we need to apply the tools that the State 
Department is unwilling to apply, I am more than happy to do it 
for Gabriel and Anastasia and with that, I yield back.
    Mr. Smith. Thank you very much.
    Just a few follow-on questions and then Ms. Jayapal has 
some additional questions as well. As you know, India is the 
country with the most long-standing abduction cases in the 
world.
    It has for many years been unwilling to join the Hague 
Convention. Close to 100 American children there are denied 
access to their American parent and suffer years in India's 
family court system.
    We have numerous left-behind mothers in the United States 
who suffered both domestic violence from their husbands as well 
as abduction of their children to India.
    Ruchika Abbi and Dr. Samina Rahman are among them. They 
continue to suffer for lack of a resolution mechanism in India.
    Earlier this year, H.R. 3512, as I mentioned in my opening 
comments, was introduced. It would remove countries like India 
from GSP benefits until India begins to work cooperatively to 
resolve the abductions.
    Do you think an additional bill might limit India's H-1B 
visas until abducted U.S. children are returned would also be 
helpful?
    Ms. Lawrence. Thank you, Mr. Chairman. Thank you for 
mentioning the mothers who are left-behind parents.
    When I was in India, again, part of that narrative and part 
of the effort to unravel some of the myths surrounding 
international parental child abduction is that the taking 
parent is always the mother, and as we know, there are a number 
of mothers who are the left-behind parents.
    So that was, in part, as I suggested would be a useful 
lesson in going through all of the cases one by one to start 
looking at what patterns are really there. I think what you 
will find is that the pattern is that people know that they 
have a safe haven and we have made that known.
    And I think the only way out of this, as we have said, is 
to at least accede to the convention. I know we have discussed 
this with respect to Japan.
    It won't cover the pre-convention cases in terms of 
returns, although there would be an access issue, but in the 
meantime to find a mechanism, whether that's a memorandum of 
understanding, whether that's a working group.
    We put all of these things on the table. We advocated for 
them. I think there is a lot to be gained by sitting down and 
looking individually at these cases and seeing what more can be 
done than to force the left-behind parent, whether it's a 
mother or a father, into the Indian court system where they are 
not going to see a resolution.
    So, you know, again, I hear the range of tools that you are 
talking about. We are--we are willing to sit down and talk with 
you about what your ideas might be.
    I don't know if our colleague from the Indian Embassy is 
still here. He was before. I can't see out the back of my head. 
But I hope that he has also heard a lot of these comments and 
will take that back to the Embassy today.
    Mr. Smith. And Bindu Philips from just outside of my 
district has a very similar case. Her husband not only--and the 
local police have reported this accurately--not only did he 
steal, she tried to visit her children.
    It was not a good experience. We are very concerned about 
this and if India is, again, not on the list, which I believe 
it will be, there needs to be a sanctions regime.
    I can't stress it enough. We do it to our best friends in 
trafficking. We can do it with our best friends when American 
children are abducted.
    Let me ask one final question. Nico Brann was abducted to 
Brazil 5 years ago by his mother, Marcelle Guimaraes, with the 
help of her parents, Carlos and Jemia.
    In February, the parents were arrested in Miami, as you 
know, and then indicted by a Federal grand jury for 
international parental-child abduction and conspiracy.
    They now face 8 years in prison if convicted. But Marcelle, 
a dual U.S.-Brazilian national, remains a fugitive at large in 
Brazil with Nico.
    Under the Goldman Act, the Secretary of State has the 
authority, as you know, to ask for her extradition. While 
Brazil's constitution forbids the extradition of Brazilian 
nationals, Brazil could denaturalize and extradite her just 
like they did in another case this year involving a dual 
national who was indicted for allegedly murdering her husband 
in Ohio.
    Given this precedent, will the U.S. now request that Brazil 
denaturalize and extradite Marcelle Guimaraes to the United 
States to face similar criminal charges?
    Ms. Lawrence. Thank you, Mr. Chairman.
    I haven't had the opportunity to let you know that I'll be 
traveling to Brazil in a couple of weeks and many of the issues 
that you raised about Brazil will be on our agenda.
    Of course, as you know, a request to return a child under 
the convention is separate from the filing of criminal charges 
against a parent, and criminal charges are not generally 
initiated in order to influence the outcome of the civil 
matter.
    Mr. Smith. But as you know, it's already been done toward 
the grandparents.
    Ms. Lawrence. Correct. And we remain in contact with the 
Department of Justice and I would have to defer to the Office 
of International Affairs there to speak on extradition because 
they do have lead on extradition.
    Mr. Smith. Could you make that request or at least an 
inquiry as to whether or not this process can be followed?
    Ms. Lawrence. We will certainly--we will certainly follow 
up with the Department of Justice on this particular case and 
the issue, more broadly, and get back to you, of course.
    Mr. Smith. Ms. Jayapal.
    Ms. Jayapal. Thank you, Mr. Chairman.
    I just wanted to--I forgot that I wanted to raise, and 
perhaps the chairman did in his opening statements, but the 
statements of the Japan's--Japan's Minister of Foreign Affairs, 
Fumio Kishida, who observed recently that--and this is his 
quote--until now, there is not a single example in which the 
United States applied these actions, and he's talking about the 
Goldman Act sanctions, toward foreign countries.
    And then he went on specifically to note that we had not 
labeled Japan as noncompliant, and 3 days later the Osaka High 
Court overturned a final return order for Mr. Cook's four 
children.
    And so I just wanted to reiterate that and ask you 
whether--how you read that comment, because to me that comment 
goes back to what I said in my opening statement, which is that 
we are not being taken seriously.
    Nobody thinks that we are actually going to do anything 
with the tools that have been provided, and I think that's 
extremely harmful because I do think that it also affects what 
happens in these courts in--around these cases in these various 
countries.
    And so I'd be interested in how you read that comment and 
what do you see as the--as the remedy to the idea that the 
United States is not actually going to do anything about these 
cases.
    Ms. Lawrence. Thank you again, Congresswoman, and thank you 
for raising Mr. Cook's case. I know he's on the next panel and, 
again, in his case he did everything right.
    So, again, we have made that point to our Japanese 
counterparts. I don't know the context with which the Foreign 
Minister spoke.
    I don't know why he chose to say what he did. I am not 
going to answer on behalf of the Japanese Government. I will 
leave that to them.
    What I can say is that when we have discussed their failure 
on enforcement and the shortcomings in terms of compliance with 
all aspects of the convention, we have discussed citations.
    We have discussed the full range of tools available, and I 
think there are many people that I have met with, certainly 
that Ambassador Hagerty has met with, that we have met with 
here in Washington who do understand the severity of what we 
are talking about.
    So, again, I can't answer for that comment specifically. I 
don't know why that comment was made or in what context. But I 
can say that the people that I have met with have heard our 
message and, again, I thank you for this time to speak about 
all of this openly and publicly.
    I think, in my almost three decades of serving the United 
States and working as a diplomat both here in Washington and 
overseas, we are most effective when we speak with one voice 
and when people know that we are serious and together on the 
issue.
    And so I appreciate the opportunity to have this dialogue 
and hope that this will reach some of our colleagues so they 
understand the seriousness with which Members of Congress view 
this issue.
    Thank you.
    Ms. Jayapal. Thank you.
    But I think I know why he said that, because it is true 
that Japan has not been designated as noncompliant. Do you 
think that there is a high likelihood that Japan might be 
designated as noncompliant?
    Ms. Lawrence. Thank you.
    Again, as I stated earlier and I think I've said a couple 
of times, I have been very clear with the head of the Japanese 
Central Authority and with all of the people that I have met 
with who have told us all of the things that they have done as 
a Central Authority and as a country to be a good partner under 
the Hague Convention and also to address pre-convention cases.
    My response has been we appreciate the development of the 
Central Authority. We appreciate whatever they have done to be 
a good partner.
    However, when we are looking at the full measure of their 
performance we must take note of the fact that they cannot 
enforce the court orders, and what we have said previously--and 
that gets to this comment--is that it undermines the confidence 
that people have in their seriousness with which they approach 
the convention.
    And so, again, there is no mistaking what we think about 
that aspect of their performance and, hopefully, they 
understand where we are.
    Ms. Jayapal. Thank you, Ms. Lawrence. I am going to yield 
back.
    But I do think it also undermines our credibility on--and 
our seriousness. It's not just the Japanese Government's 
seriousness. It's the United States' seriousness about how we 
approach these cases.
    And so I recognize that yours is a very challenging 
position and a very difficult job, and but I think what you're 
hearing is we would like to see our seriousness reinforced 
around these cases.
    We'd like to bring these children home, and we'd like to 
make sure that the governments that we are interacting with 
understand that we do mean that.
    Ms. Lawrence. Thank you, Congresswoman. We have many shared 
objectives.
    Mr. Smith. One just final question. As you know, we have 
talked a lot about enforcement or the lack thereof in Japan.
    Another threshold for a country being found noncompliant is 
judicial decisions inconsistent with the Hague Convention. As 
we will hear from Mr. Cook next, the courts in Japan reversed 
the final return order in his case because they thought it 
would be bad for the children to live in an apartment in the 
United States.
    Do you believe this public decision by Japan is consistent 
with the Hague Convention's exception to return Article 13-B, 
grave risk of psychological or physical harm or an intolerable 
situation? How Japan's de novo best interest determination here 
affects future cases? I mean, it's an awful precedent but I'd 
appreciate your thoughts and response.
    Ms. Lawrence. Thank you, Mr. Chairman.
    I think that one of the areas that we work on very 
carefully is education through seminars, through workshops, 
through exchanges of information, through our Hague network of 
judges.
    We have had many discussions with many partners about the 
exceptions in the convention and the use of those exceptions. 
Again, I think Mr. Cook did everything he could in the correct 
way, and so, we do look to improve always the consistency of 
the decisions over time and the application of the convention.
    That's the purpose of the convention. And, I also would 
mention, because this case has gone on for some time, that the 
purpose of the convention is to bring a quick resolution.
    It's to return the child to the country of habitual 
residence unless the case falls within those very specific 
exceptions. That's the purpose of the convention.
    As you mentioned at the outset, time is not a good thing in 
these cases. This is not to our advantage for the child, for 
the family, for anybody.
    And so again, we are looking for application of the 
convention, correct implementation. We are looking for speedy 
results. That is in the best interests of all the people 
involved in these tragic circumstances.
    And so, I have heard your concerns, and we share your 
concern for----
    Mr. Smith. But publicly on the issue of living in an 
apartment, and the only reason he lives in an apartment is all 
the money he has spent in adjudicating this case--paying the 
lawyers' fees and everything else.
    So he's been drained by the process and now that's used 
against him by a court in Japan. Do you find that outrageous?
    Ms. Lawrence. As I said, Mr. Chairman, Mr. Cook did 
everything he could and----
    Mr. Smith. But it's not a viable----
    Ms. Lawrence. We have pointed that out to----
    Mr. Smith [continuing]. Point for Japan to take, is it?
    Ms. Lawrence. Correct. We went and talked specifically 
about this case as well. Again, we are looking for consistent 
implementation of the convention, which will give people 
confidence in the convention and that's to everyone's 
advantage.
    And, again, these should be speedy resolutions. The 
children should be returned to the case of--to the country of 
habitual residence, and the courts are the place to properly 
decide custody of children. It is not a unilateral action by 
one parent. That is not the way to do this.
    So thank you again for those comments and that will be 
helpful to us.
    Mr. Smith. Just for the record, could you tell us how many 
cases were resolved last year in Japan?
    Ms. Lawrence. I don't have the exact number. As I said, I 
only have a number from when they acceded to the convention.
    We, as I said, had filed 18 cases officially.
    Mr. Smith. How many children does that----
    Ms. Lawrence. And I don't know the total number of children 
affected but 14 of those cases were resolved. Again, they were 
resolved through voluntary means, perhaps mediation. None were 
resolved through enforced court orders.
    Mr. Smith. None were resolved. So, again, all the more 
reason why, in neon lights, Japan isn't on the list.
    I remember in the journalism class, the first one I took--
and I wish it was followed by many of our journalists today--
was the three A's of journalism--it's accuracy, accuracy, 
accuracy. Get the book right.
    I mean, what we do in terms of what you do, because you do 
have discretion in terms of following the prescribed potential 
sanctions. Reasonable men and women have to decide what is the 
best way to get from here to there.
    By just stating the clear truth with the backdrop of the 
Goldman Act as the criteria, I don't see how Japan can be 
anywhere but is my complaint.
    Thank you. I appreciate your testimony and your service.
    Ms. Lawrence. Thank you very much.
    Mr. Smith. I'd like to now welcome our second panel, 
beginning first with Patricia Apy, internationally well known 
expert, an attorney practicing international and interstate 
family law.
    Among many countries in which she has litigated, been an 
expert witness or served as a consultant on international 
family disputes are the United Kingdom, Brazil, the United Arab 
Emirates, Italy, Pakistan, Australia, India, Japan, South 
Africa, Israel, Lebanon, and Canada.
    She is frequently sought out by both family law attorneys 
and litigants nationwide to serve as an expert co-counsel in 
their own state courts on international matters. Notably, Ms. 
Apy is an attorney--was the attorney for David and Sean 
Goldman, successfully resolving the 5-year abduction case with 
Brazil with Sean's return to the United States in 2009.
    Ms. Apy consulted very broadly with us, provided expert 
counsel while we were writing the Goldman Act and I am forever 
grateful to her for that, which passed into law and is now the 
subject of part of this implementation hearing.
    I'd also like to introduce Mr. James Cook. As the father of 
four children, two sets of twins, who were abducted and are in 
Japan. At this time, he has only been allowed one visit with 
his children and has not been allowed any access to them since 
August 2015.
    Mr. Cook works for Boston Scientific Corporation, a 
manufacturer of medical devices in Minnesota. Mr. Cook 
testified before this committee before twice during his ordeal, 
beginning with the--begging, asking, appealing to the State 
Department to take action.
    Ms. Apy, the floor is yours.

  STATEMENT OF MS. PATRICIA APY, INTERNATIONAL AND INTERSTATE 
           FAMILY LAW ATTORNEY, PARAS, APY, AND REISS

    Ms. Apy. Thank you, Chairman Smith and distinguished 
members of the committee. It's a privilege to return.
    My first testimony before the subcommittee in support of 
the Goldman Act was actually in 2009. So I've been living with 
this act and its implementation, particularly in the context of 
private practice since that time.
    I would respectfully request that my written statement be 
included in the formal record.
    Mr. Smith. Without objection, so ordered.
    Ms. Apy. Thank you.
    I had the opportunity to listen to the prior testimony and 
I think it would be most helpful if I addressed some of the 
issues and the questions that were raised at that testimony 
from a practical perspective.
    The very first thing that I want to say is that the work of 
this subcommittee in--which went on for a number of years with 
extensive hearings with a great deal of work, created an act 
which has had an immediate impact on the prevention of child 
abduction.
    The report that was--that is a strong part of the act was 
actually opposed by the United States Department of State along 
with the body of the act when it was originally preferred.
    The opposition was that it would not be effective, that it 
would--that it would be met with a response diplomatically that 
would not foster the return of children, that it was not 
consistent with the abduction convention.
    All of those criticisms proved to be untrue. In fact, the 
number that you've been given for the reduction in the amount 
of cases of child abduction is a direct result of American 
judges who have had the opportunity to review the report and to 
make a determination whether asked by individual parents for 
preventative measures to make a determination objectively based 
on that information as to whether or not there exist obstacles 
to recovery of children systemically in a country. This is 
without necessarily consideration of the individual 
characteristics of the parties.
    So, for example, if a judge is looking at a report and it 
indicates that there is a noncompliant state, the judge then 
knows that there needs to be a broader and more protective 
aspect of parenting and access protections, which is why 
language is so important.
    One of the things what concerns me about the report and 
concerns me about the testimony that we have heard today is 
that language has been used very loosely, and I want to point 
out some of the places so that this committee can appreciate it 
and consider it in some of the questions that have been raised 
in some of the legislative actions which may need to be taken.
    First of all, you keep hearing the word resolved--cases are 
resolved. Let me remind the committee that the--under the 
convention--we are talking about convention cases--there is one 
remedy that is provided with respect to an abduction and that 
is return.
    The Hague Convention does not address custody. It doesn't 
address jurisdiction. It addresses the return of a child 
wrongfully removed or retained outside of the child's habitual 
residence.
    With respect to the organization of rights of access, there 
is one remedy. It is that there is an identifiable opportunity 
for actual access between a parent and their child.
    In the reports that went along with the original 
identification of the organization of rights of access, access 
was supposed to be the ability of a child, for example, to 
return and visit the other country of the parent, whether it's 
a left-behind parent or a parent in a case in which the parties 
just live in other countries.
    That's not what you're hearing in either the testimony or 
in the reporting. When you hear resolution, a careful follow-up 
question is how many returns have there been, and the answer is 
there have been none.
    When you're asked how many--what are the--there was a 
reference to half of the cases that were filed when Japan 
ratified the convention, providing an opportunity for access.
    The careful follow-up question, and I believe I did hear 
some response to this, is that the access that provided is not 
an identifiable access order.
    It might have been one Skype call. They are including the 
definition of access the ability to send packages to a child 
without any contact whatsoever. Nothing in the convention 
contemplates that as access.
    So the first piece that has to be addressed is that the 
report has to be accurate because an American judge had to know 
that in fact there is no ability to obtain an access order if a 
child is retained in Japan, for example. There is no ability 
for a U.S. order in any state to be provided an opportunity for 
enforcement.
    The Hague Abduction Convection is a reciprocal treaty 
which, of course, means that both parties have to be signators, 
have to have provided the responsibilities under the treaty and 
to afford those responsibilities.
    It is not a situation in which you can merely assert a 
treaty is applicable whether or not it is actually--there is 
actually been any type of treaty relationship.
    I need to point out that in the written remarks that you've 
been provided there is reference, for example, to a number of 
countries and work on the part of the Department of State with 
respect to those issues.
    I have to caution that that information is inaccurate. In 
fact, Jamaica, Pakistan, and Tunisia have deposited their 
accessions with the Hague Conference but their accessions have 
not been accepted by the United States Department of State.
    So there is no treaty relationship right now that exists 
with respect to those countries. With respect to Fiji, I agree 
that we--they reference it as having been welcomed as a 
partner. But you should know that the accession was deposited 
in 1999 originally, and it's taken until now.
    And again, that there could be very good reasons for the 
failure to accept the accession of a country that has indicated 
that they are filing it.
    In the prior testimony, you heard repeated reference to 
Japan acceding to the convention. So we are clear, Japan did 
not file letters of accession.
    Japan, once it ratified, became immediately affected. The 
United States had no oversight or--and there was no ability to 
accept the accession.
    Why that is important is that there--the idea that they 
would need some time to get up to speed, as you have heard, 
referenced that there was no way to place any conditions or to 
impact on the way the treaty was going to be applied in Japan.
    As I've testified in prior hearings, I was deeply concerned 
that Japan would ratify the treaty and what would follow is 
exactly what we have and that is it is in name only.
    One of the most important aspects of the report has to be 
its accuracy and its transparency. If a country is listed as 
compliant, then a judge sitting in Washington State is going to 
look at the report and believe that a parent requesting the 
opportunity to visit that country will be doing so under an 
effective and existing mechanism for the return of the child.
    Without accurate information and accurate language, it 
creates the impression that there is a reciprocal active 
relationship. Same with if we are talking about context of 
countries in which there are difficulties going on with their 
treaty partnership.
    There has to be transparency about where the difficulties 
are even if it's a circumstance in which the State Department 
is reticent to list them as noncompliant. You still have to 
identify oh by the way, they are not going to enforce an order. 
They are not going to provide rights of access. You're not 
going to be able to have a child returned.
    That, to me, the unapologetic identification of actual 
issues in the report has got to be--has got to be the number-
one issue that the United States Department of State does as it 
addresses and provides the information in this report.
    The second issue that was addressed and questions were 
asked that I think is extremely important is accurately 
describing what steps are being taken when you have identified 
that a country is noncompliant, there are a number of standard 
phrases that are found in the report that are not descriptive 
and not helpful.
    For example, talking about we are working with, we are 
talking with, we are trying to find practical solutions, we are 
working on educational opportunities are not responsive, very 
frankly, to the issues of the particular difficulties that you 
would find in the country.
    For example, if we were talking about a country where the 
problem is the enforcement of orders where the mutual 
recognition of orders depended upon the nature of the problem, 
you might want to seek the entry of a mirror order in that 
country so there are orders in both places before a child is 
permitted to visit.
    You might have additional passport and border restrictions 
that you would not otherwise have. There was reference in 
testimony to India. I think it's very important that this 
committee understand that India has taken a formal position 
against the execution of the treaty.
    There is--a study was commissioned in 2009. During the time 
period of that study, which took a number of years, most 
lawyers and judges supported the India joining the convention.
    However, the Indian Government, when that issue was pressed 
and it was provided to public comment, strongly took the 
position that they believed, rightly or wrongly, that the 
treaty would not be a benefit to their citizens.
    In particular, it focused on the ability to permit, as they 
said, women to return to India without the necessity of having 
to respond or return children to their habitual residences.
    That's a formal position. It's not an educational problem 
at this point, especially given the length of time which, of 
course, gets us to the systemic problem of diplomacy.
    There is a reference in the--in the written remarks of the 
Special Advisor that is a little bit concerning and that is a 
reference to diplomatic efforts.
    She indicates much of the day-to-day diplomatic engagement 
on abduction matters is handled by country officers in the 
Office of Children's Issues.
    There is no question that country officers work individual 
cases. But the Goldman Act was designed to go beyond the 
particular issue of any individual case and to broaden the 
concept of fighting child abduction by looking at diplomatic 
tools in an objective matter.
    The point is, as I've testified before, no individual 
parent should have to become, if you will, an officer of the 
United Stated Department of State and engaged on a state level 
basis in determining what the problems are with compliance or 
reciprocity.
    I could not hear in the testimony and I am unaware of any 
objective process that has been instituted by the United States 
Department of State with respect to any of the tools as we have 
called them addressing noncompliant countries.
    The last time I am aware of there having been any of 
actions like the tools that have been described were before 
this act was in place and that was in the case of David Goldman 
when, based on individual effort and effort of the chairman and 
effort of members of the Senate in addressing this issue.
    Those elements were done from the congressional side. They 
were not recommended by the United States Department of State 
and they were not supported by the United States Department of 
State.
    Nevertheless, they were incredibly effective in the return. 
When you have countries like we have had in the report since 
its inception that have remained on the noncompliant list, 
there has to be an objective process and you have to have, as 
Members of Congress, an objective report as to was a 
recommendation made that certain of these tools be employed.
    And I didn't hear that there is even a process in place for 
OCI--Office of Children's Issues--to identify what steps they 
have taken and what the responses are so that you can not only 
address the problems with respect to your constituents but so 
that you can address in the committees in which you sit and the 
legislative determinations that you make, whether or not that 
is a consideration you have to have available.
    In my discussions with attorneys and judges throughout the 
world who address these issues, particularly in countries that 
have been identified as noncompliant, they are almost 
unanimously in support of the concept that understanding that 
pressure will be placed upon the country on a systemic basis 
will make a difference in treaty compliance and will make a 
difference in looking at these issues seriously.
    With respect to, for example, the use of memorandums of 
understanding, their ideal for the circumstances in which there 
is an educational issue, you can identify where are the 
problems.
    You can identify what actions have to be taken and what 
time frame, and until they are, you can then notify judges and 
lawyers in the United States that there does not currently 
exist a reciprocal treaty relationship.
    Again, when this was originally--when this act was 
originally addressed, the concern was that it would somehow tie 
the diplomatic hands of the United States Department of State.
    Well, to my knowledge, since this act was--has been 
enacted, other than a demarche, there has been no diplomatic 
action taken, no requests or any objective process employed or 
recommendations that I am aware of for the imposition of any of 
the tools that you've identified.
    My final point that I would like to address is the issue of 
border control, and I do note that in the--in the report that 
was provided by Ms. Lawrence, there is a reference to the 
Department of State working closely with U.S. Customs and 
Border Protection and referencing numbers.
    May I tell you that the number 200 children being enrolled 
in the program, Homeland Security's program, which is 
authorized by ICAPRA, is woefully low.
    We have had thousands of orders for protective measures. 
There are significant difficulties in getting families onto 
this list. The review process that's been employed with an 
extra step by the Department of State has been difficult. There 
has been a lack of communication back to judges as to whether 
or not children are on or off the list, creating abduction 
risk.
    So that number is not a positive. Two hundred is woefully 
low. It evidences that there is a lack of implementation that 
needs to be looked at, seriously.
    I'd be happy to take any of your questions or address any 
of the countries that are referenced with which I have 
experience that might be helpful.
    [The prepared statement of Ms. Apy follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              


 STATEMENT OF MR. JAMES COOK, FATHER OF FOUR CHILDREN ABDUCTED 
                            IN JAPAN

    Mr. Cook. Thank you.
    Thank you, Chairman Smith and the committee members for 
this opportunity to speak about Japan, Hague compliance, and my 
experience in the process, and I request that my written 
statements be entered into the record.
    When I last testified it was last April before this 
committee, 2 months after Osaka High Court had revoked the 
return order of January 2016.
    In May 2017, I appealed this ruling and in December 2017 
Japan's Supreme Court ruled that the Osaka High Court was 
correct and affirmed the order and closed my case.
    A few weeks ago, the Osaka High Court cancelled the 
previous enforcement orders and all penalties due to me, which 
grew to $132,000--$84,000 of which at the time when the Osaka 
High Court originally ruled and said that I had no financial 
means, they had already ordered $84,000 paid to me.
    This is how Japan executes the perfect Hague abduction. 
After over 2\1/2\ years in this process, I have nothing. This 
process has cost me everything.
    Japan relitigated our Hague case as a successful ploy to 
avoid compliance with the Hague. The Hague is specific in its 
intended objective--a ruling to determine habitual residence 
and legal jurisdiction. That jurisdiction is the venue to 
evaluate a child's best interest and custody. Japan 
intentionally conflates Hague jurisdictional decisions as 
custody decisions.
    When Article 16 of the Hague explicitly prohibits custody 
determinations, the Osaka High Court's February ruling 
basically was a best interest custody hearing. For further 
details on this and other statements, please refer to my 
written testimony.
    Japan's court system is corrupt and must not be respected 
by the USA. There are groups and organizations that control 
much of the family law in Japan. Federation of Lawyers of 
Japan, whose members include Yoko Yoshida, Yoriko Nishimura, 
and Takayo Amata is one such group.
    Yoko Yoshida, vice chairman of the Committee on Gender 
Equality, an organ of the Federation of Lawyers of Japan, 
opposes Japan's ratification of the Hague Convention.
    Most of the attorneys who advise and help child abduction 
are communists--members of Japan's Communist Party. See the 
written testimony for further details and evidence that 
communist attorneys control family courts and advocacy of 
abduction.
    A large piece of Japan's corrupt family court system is a 
network of governmentally funded domestic violence shelters, 
referred to as Shelter Net in Japan.
    An attorney, like Yoko Yishida, will tell a woman seeking 
divorce and sole custody of her child, to report to a DV 
shelter. The shelter will receive money for this woman and 
child.
    It is obvious this situation is ripe for collusion between 
federation attorneys and Shelter Net member shelters.
    At the divorce hearing, applying the continuity principle, 
the judge rules the child is to remain with the abducting 
parent.
    An important point about the continuity principle--it's 
illegal. Civil Code 766 took effect in 2012 specifically 
instructs judges to use abduction against a parent in 
determining custody.
    There is no--there are no consequences for judges 
disregarding the law. Judges are rogue and create legislation 
from the bench.
    The jurisprudence of judges even at the Japan Supreme Court 
in the Hague cases and even in Hague cases as so-called 
continuity principle whereby abductors keep children.
    We know this principle is operative based on empirical 
evidence of many rulings including my Supreme Court ruling of 
December 2017. Taking a child permanently from one parent is 
crazy and inhuman.
    More information on this issue is within my written 
testimony. As a result, Japan's Supreme Court's noncompliant 
ruling of December 21st, 2017, on April 6th I submitted through 
legal counsel in Japan a petition for impeachment to Japan's 
Diet of the following Supreme Court justices: Atsushi 
Yamaguchi, Masayuki Ikegami, Naoto Otani, who is now the chief 
justice of Japan's Supreme Court and his elevation is a 
curious, almost quid pro quo nature with relation to when my 
order or decision came out; Judge Hiroshi Koike, whose opinion 
at the end of my ruling illustrates at least one justice has a 
complete disconnect with the elements and the intention of the 
Hague; and finally, Katsuyuki Kizawa.
    The 52-page impeachment petition plus supporting evidence 
details illegal practices by the judiciary, collusion by 
attorneys, and ties to politicians in Japan's Diet and details 
the several ways that Japan's Supreme Court's decision 2017 
ruling is in direct violation of the Hague. Such wilful 
malpractice must only be resolved through impeachment.
    This petition is available to the 26 EU member countries, 
Canada, and U.S. Department of State to aid in their unified 
efforts against Japan regarding international parental-child 
abduction. The original Japanese language petition is available 
from Kisna Child Parent Reunion, an NGO in Japan.
    Japan must be held accountable. Diplomacy on this issue 
with Japan has not been successful for decades. More than 400 
children, supported by DOS statistics, have been lost to U.S. 
parents in this time.
    Children are not bargaining chips or pawns because their 
rights are non-negotiable. For reasons outlined above, 
including the noncompliant Japan's Supreme Court Hague ruling, 
Japan's corrupt judiciary, and Japan's unrepentant abduction 
practices, I recommend the following actions be taken.
    One, placement of indefinite tariffs upon strategic 
Japanese imports until the following occur: A, revocation and 
invalidation of the Osaka High Court's February 2017 ruling and 
Japan's Supreme Court's December 2017 ruling, and the immediate 
return of my four children without delay or condition; B, 
criminalization of parent-child abduction to Japan; C, 
criminalization of denial of access to pre-Hague abducted 
children; D, creation of a quick legal path to criminalization 
and prosecution and contempt of Hague return orders that 
include forcible arrest of abductor, prosecution of harboring 
individuals, and physical remove of children by law enforcement 
or the left-behind parent; E, recognition and enforcement of 
all previous and future U.S. court custody and return orders; 
and F, extradition of U.S. or court ordered persons by any 
means including arrest, physical force, and arraignment of 
harboring individuals.
    Suggestion number two: The Department of State to issue 
indefinite travel alert in caution to parents travelling to 
Japan with minor children of Japanese descent due to extreme 
abduction risk and Japan's history of noncompliance.
    This alert can be rescinded at some point when Japan shows 
2 years with perfect Hague compliance. More recommendations are 
found in my written testimony.
    Finally, Japan has ignored demarches and similar toothless 
diplomatic efforts for years. Japan, at its core, is an 
economic nation that relies on asymmetric trade. That is, they 
sell far more than they buy.
    Effective strategies will use tactics that affect trade, 
not diplomatic talk. Tariffs, not talk. Deadlines, not debate. 
Progress, not promises.
    I ask this committee and fellow lawmakers to make laws as 
I've outlined above. I ask judges across the United States to 
heed my testimony when contemplating joint custody arrangements 
between U.S. and Japanese parents and, certainly, any 
consideration of allowed travel out of the U.S. There is no 
such thing as a harmless vacation to Japan.
    I ask President Trump to make the call, write the executive 
order, or take the action that returns my children immediately.
    When you are with P.M. Abe next week, tell him he must do 
it and he will. Please refer to my written testimony for 
recognition of groups and individuals who have helped. I am not 
short on gratitude but I am limited on time before this 
committee.
    Thank you again, Chairman Smith, and I am forever grateful 
for your years of work, the opportunity to speak, and most of 
all, I thank you for caring, which you have.
    [The prepared statement of Mr. Cook follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you, Mr. Cook, and I think your point 
about upcoming meetings with Mr. Abe is an excellent 
opportunity for the President to raise these issues.
    In previous meetings, we have given detailed memos to the 
White House in the hopes that he would raise it in a way that 
was significant and detailed.
    We'll do it again, so thank you, and your testimony, I can 
assure you, will be clear and hopefully as well as a summary of 
it that we will convey to he and others within the 
administration.
    These are great opportunities. As a matter of fact, when in 
a previous meeting, obviously, there's always been concerns 
about abductions from Japan to Pyongyang to North Korea and the 
President has spoken out, as I have and so many others have, 
for years.
    Congressman Honda had a resolution years ago on that and I 
was the Republican co-sponsor on it, believing that too is an 
egregious violation.
    Well, Japan itself needs to be held to account as well. So 
we did ask that he raise it with Abe. We will do it again, and 
I appreciate that.
    If I could, Ms. Apy, if you could, when a judge is dealing 
with a case before him or her, do they read the report to get a 
sense of what that country's potential risks are? Do they often 
contact, for example, the State Department or the Office of 
Children's Issues to get a further delineation of how good or 
bad?
    Because a report is always dated except for the first few 
weeks when it comes out and even then they might want to get an 
update if there's been any turn of events. How does that 
actually work?
    Ms. Apy. Of course, as you mentioned, the report is 
retrospective in that it tells us about the numbers for the 
prior year, which is why the classifications of noncompliance 
versus compliance are so important because it means you don't 
have to deconstruct what's happening yesterday.
    In most family court cases, of course, a judge doesn't do 
independent fact finding. The information is presented to the 
court subject to the rules of evidence, which is why the report 
is so important.
    Because it's been generated by the United States Department 
of State, it can be taken--judicial notice can be taken of the 
content of the report and it can be used then by the court in 
assessing risk, which places the burden on someone who is--who 
is arguing that the classification of the Department of State 
should not be accepted. It places the burden on that person to 
come forward.
    So, for example, in a circumstance like Japan that we've 
been discussing, because Japan has heretofore not been listed 
as noncompliant, it places the burden on the parent who wishes 
to provide protections against travel in bringing--in hiring an 
expert and having that expert come and testify specifically to 
the very issues that you have heard testimony on today and I've 
served in that capacity.
    So the problem with that is, of course, it's an expensive 
process. It involves having to find an expert and to present 
that information to the court and, of course, the court is 
looking at a report issued by the Department of State saying 
that, in the case of Japan, as we've been discussing, they're 
compliant. So it's extremely problematic.
    The court doesn't get--it wouldn't have the opportunity, as 
I said, to get updates, but the counsel can and in fact if 
they're on--if on the State Department Web site and on other 
identifiable State Department sources of information their 
updated data, that would be something that the attorneys could 
reference and would look at and when, in fact, we do.
    Mr. Smith. If I could just ask you on the necessity and 
efficacy of MOUs, which I know you have spoken to many times. 
We included it in the Goldman Act.
    I know prior to Japan's accession to the Hague the view 
from the State Department, not only for the Goldman Act itself 
because the official position was against, until it was 
reversed later by John Kerry.
    I didn't get any sense today that the department is any 
closer to pursuing an MOU with Japan or anyone else. What is 
this reluctance to find a durable predictable means to resolve 
cases? Is it the effort that it----
    Ms. Apy. The Department of State took a position early on 
that they would not support any memorandums of understanding 
related to child abduction on the theory that by setting up 
MOUs that they would somehow dilute the pressure upon countries 
to become signatories to the Hague abduction convention.
    What it misses, unfortunately, is the opportunity to use an 
MOU to address specific problems and to provide diplomatic 
solutions.
    So, for example, if you're talking about a convention 
signatory like Brazil, you could use an MOU to identify the 
areas that there are problems and then set objective goals 
while at the same time saying, A, you're noncompliant, and B, 
until the following things happen we are going to announce and 
make it clear that there is no reciprocal relationship, which 
means, for example, that American children would not be 
returned unless the treaty process was back in place.
    That's an example. The advantage of doing MOUs in non-Hague 
countries can be seen by--if we look at Pakistan, who has filed 
their accession, I am looking forward. Hopefully, the accession 
will be very soon accepted.
    Pakistan is one of the very only Sharif-based systems 
that's a common law system. We have high court judges prepared 
to apply the treaty and part of the reason they're prepared is 
there's been a memorandum of understanding between Pakistan and 
the United Kingdom that has been working for a number of years, 
establishing the legal culture that allows now the treaty to 
become part of a normalized concept of the law there.
    That's an example when an MOU, especially when we have 
religious-based legal systems, can be used to bridge the 
culture so that we don't run into a problem where a country--
the accession is accepted and there's nothing in place.
    You have no underlying law. You have no underlying process. 
But you have on paper a reciprocal treaty agreement. I can only 
assume that the reason that MOUs haven't been used, now that 
you have got the numbers and the report that provides for them, 
is that there's just not been the diplomatic will to do the 
hard work to do that.
    And I--and, frankly, it's a, from my perspective at least, 
I know that member of the bench and bar in the United States, 
members of organizations like the International Academy of 
Family Lawyers and the American Bar Association have been 
willing to work with the State Department as private 
practitioners providing technical assistance in drafting MOUs, 
in providing model orders, in doing things that would, if you 
will, advance the ball.
    Again, it's nowhere on the radar screen because there is no 
process employed for moving beyond a demarche. There's just--I 
don't see how the--the whole point of considering MOUs was to 
provide objective information so that we were not talking about 
speculative subjective reviews of countries.
    We had objective information so that if we were talking to 
our friends we could say, look, I am sorry--you know, we have a 
valued relationship with you but the following numbers need to 
be addressed and here's how.
    I just don't see that there's been the diplomatic will or 
the political will to do that on the executive side and I--
since I've been doing this for a very long time I am hopeful.
    Again, the work of this committee cannot be overstated in 
that when you look at those--the reduction and the preventative 
numbers it's only because of the work of this committee and 
it's made a huge impact on American families.
    Mr. Smith. Suzanne Lawrence did talk about redoubling our 
efforts. We worked tirelessly both in the U.S. and in our 
Embassies.
    It seems to me that working tirelessly and redoubling our 
efforts--since we are at the threshold now where MOUs are--
should be a given as a remedy to--as a means to a remedy of 
these cases.
    So we'll redouble our efforts to try to get them to do it 
because I think it's just missing by a mile. You know, nice 
conversations, diplomatic meetings are all fine. But they 
should not be a substitute for a durable mechanism that could 
employed with predictability and, hopefully, with success.
    Just a couple final questions and I deeply appreciate 
both--the subcommittee deeply appreciates both of your 
testimonies. It helps us to know what to do next and how to go 
forward, and I thank you for that.
    Ms. Apy, if you could maybe speak to countries that you 
have found to be more Hague compliant. Do you find that it's a 
problem worldwide that everyone seems to have serious problems 
or are there countries that you have found that really seem to 
be on the ball and really want to do the right thing?
    And, again, if you could, Mr. Cook, I said it to Ms. 
Lawrence. You, obviously, said it in your testimony. But the 
whole idea that seems to be missing--people say what about 
Japan--oh, we've brought some people back.
    Well, as you have pointed out, when the abductor says no, 
enforcement ends. That is absolutely absurd to think that the 
veto power is vested in the abductor--the person who has 
committed this egregious action.
    So perhaps you might want to speak to that again because I 
think the Japanese Government needs to know that we find this 
outrageous. You know, you cannot convey that kind of veto power 
to someone who has committed such a terrible act.
    Ms. Apy. I would just reference, on countries that are 
particularly successful, keep in mind, of course, that the 
Hague abduction convention was executed in 1980. The United 
States ratified it in 1988.
    So for 8 years, a number of countries had already begun the 
process and begun the--the body of case law began to be 
established. And so you have, frankly, leadership in that 
regard. The United Kingdom, the Netherlands, Sweden, Canada 
would be places that have continued to apply the convention.
    I would note one common element to their success, however, 
and that is that in virtually all of those countries where the 
success rates are extremely high, left-behind parents are 
provided support in having legal representatives to assist them 
in having their children returned.
    In--for example, in the United--in cases for Sweden, if a 
child is removed from Sweden to somewhere else in the world, 
the Swedish Government assists in underwriting the costs of the 
return and repatriation of those children.
    The result is that their numbers are far higher in the 
return of children. The same in the United Kingdom. There are--
there are particular judges that have been denominated as Hague 
judges. Legal aid is provided for left-behind parents who are 
specialists in the issue of the Hague abduction convention.
    Of course, the United States took a reservation to that 
portion of the treaty that provided for assistance in legal 
services for the return of abducted children.
    So members of the family bar throughout the United States, 
those of us who do this work volunteer our time as pro bono 
lawyers, like the Elias case, keeping in mind that the average 
length of time for these cases--for treaty cases run between 18 
months and 2 years from beginning to end if they're successful.
    For nontreaty cases and treaties in countries that are 
noncompliant and nonreciprocal the average is closer to 5 
years. That's a long time to have to pay a lawyer. It's a long 
time to have to do travel and repatriation and expenses, and 
the crippling impact of those resources cannot be overstated.
    In the Goldman case, there were over $\1/4\ million of 
expenses in--direct expenses that Mr. Goldman had to find and 
borrow and do whatever he could in order to accomplish the 
repatriation of this child and it would not have been enough 
but for the assistance of the Congress of the United States in 
taking direct diplomatic action.
    Mr. Smith. Okay.
    Mr. Cook. I resemble that comment. [Laughter.]
    I recognize that situation of having--of spending 
everything you have and it's still not enough. In fact, one of 
the recommendations I had is that the respective governments 
who sign the treaties are the ones that foot the bills for the 
two--their respective citizens for this so that way--like I 
wrote--it'd be important for the--for the State Department to 
have skin in the game.
    If they had to pay off--if they had to pay left-behind 
parents, which was myself, all of the awarded penalties as a 
result of this, they might have a little bit different view on 
doing this.
    But with respect to the--your question or talking about 
permission to enforce in Japan, the--it is accurate to say that 
you need the consent, which is a little different than 
permission--consent of the abductor to have access to the left-
behind--to have the--to the stolen children.
    It's also you need to have the consent of the abductor or 
those that are found guilty of abducting to comply with the 
order because in Japan there is no contempt, or there is 
contempt--there are no consequences for contempt.
    So even though my children were ordered twice returned, my 
wife, he told me, was able to be in contempt for no 
consequence. Meanwhile, she accrued, as I said in one instance, 
$132,000 of per diem fines and enforcement fines that after the 
court had done its magic and flipped this order and revoked it 
they then also just--like I said, 2 weeks ago took away any of 
the--the contempt fines.
    So I am absolutely left with nothing, and this isn't just 
about me. This is--this is how Japan operates absent some 
external effort.
    And a little thing I wrote in here is when--you know, we 
asked numbers of--Ms. Lawrence about the returns of children. 
We keep pretty close tabs on each other, everybody in this 
community, okay, and the numbers that I am told is that there 
have been now seven total children returned to the United 
States.
    Of those seven, three of them were U.S. children returned 
to U.S. parents, none of which were done the result of Japanese 
enforcement powers because they don't have any. One was the 
death of the taking parent--the father in Japan--and so the 
child was reunited with the mother at the funeral.
    The--another one was--well, I can't use the words here--it 
was a mess of how that she reneged at the last second and 
chased the man out of the country. There's a third, and then we 
have the case of four children--four children returned--
Japanese children returned to a Japanese mother living in 
Oregon.
    Now we have another case that was just decided with four of 
the five Supreme Court justices that were in my case--just 
miraculously understood that alienated children's opinions many 
not--should not be taken seriously and being in contempt of a 
court order is a crime.
    So they're going to allow the possibility of this child to 
be returned to the left-behind parent in the United States, who 
is also a Japanese citizen.
    So by using the State Department's own metrics, five of the 
eight children returned under the Hague will be from one 
Japanese parent in Japan to a Japanese parent living in the 
United States.
    The Hague is not working for U.S. children. It's just an 
extension of the Japanese family law system, and our State 
Department does nothing about it.
    And I have dealt with Japan for over 30 years and there 
is--we, as people in the cause, trying to get our children 
back, have to battle through our State Department over into 
another land, and I believe there are forces within the State 
Department that are going to prevent or, I should say, are 
going to give a pass to Japan almost permanently with the 
exception of someone like President Trump or maybe the future 
Secretary of State stepping in and saying, ``We are done.''
    Anybody that--anybody that--you know, we cannot allow Japan 
to continue to be noncompliant. These are children. I don't 
care what deals were done, what agreements were made, 
whatever--whoever. They were sold out for whatever donations to 
whatever foundations.
    We need to get these kids back and it has to change, and 
whoever is left from that mind set needs to be blown out of the 
State Department so we have people that actually follow the 
rule of law and follow, particularly, the Goldman Act because 
these are--this is the only way we are going to get kids back 
is to exert some sort of force upon Japan, some economic pain, 
because at the end of the day they're an economic country.
    They're excellent at the diplomatic rope-a-dope. They'll 
listen to you and they'll make promises all day long and, oh, 
they seem sincere. They're not. But they have to experience 
some pain.
    Mr. Smith. Just one final question before I go to Ms. 
Jayapal. India has been noncompliant, pursuant to the Goldman 
Act and on the reports since 2014. No penalty whatsoever.
    It seems to me this needs to be the year of getting the 
report accurate with regards to countries like Japan and also a 
year of significant sanctions. What are your thoughts on that?
    Again, a regimen that goes without--you know, it's all on 
paper and nobody does anything with it. It has a perverse 
outcome of countries saying it's a paper tiger and this law was 
meant to be a game changer.
    Ms. Apy. Well, and this is a good example of needing to 
look at the country that we are talking about and identifying 
what the problem is to find a diplomatic remedy that matches 
it.
    In India, as I've mentioned, the significant portion of the 
judiciary and the lawyers, particularly in this area, support 
joining the Hague, support taking those steps and there have 
been constant bar reports in support.
    The government has pushed back for political reasons and 
has indicated they will not do so. So----
    Mr. Smith. Does that have anything--if you don't mind me 
interrupting--to the fact that so many of those who are left 
behind are mothers--are women? Because we've had testifying 
here a number of women who have had their children abducted to 
India.
    Ms. Apy. The push back came--was led by the Ministry of 
Women and Children that indicated that they did not think that 
the treaty provided adequate protections and--for women and 
that they did not want the return to--which was, again, 
considering the limitations of protection of women in India 
under Indian law was sort of interesting to me.
    But the real--but looking--focussing on the issue of India, 
we have a tremendous diaspora of Indian--Americans--those of 
Indian descent in this country. There's regularly going back 
and forth and in a--actually covers the entire subcontinent.
    That's something where, for example, as you mentioned 
earlier, consideration of those issues in sanctions, whether 
it's dealing with visa issues, dealing with the circumstances 
under which someone can easily go back and forth in 
circumstances in which we have a country that's going to--
that's creating an environment where there is no ability to 
enforce U.S. orders--where there is an ongoing problem--where 
we do want to find a way to encourage them that--to look at 
what their own judiciary and judges are saying needs to happen 
in their country. That might be one of the ways to creatively 
look at it.
    I would also say that this would lend itself to an MOU, 
identifying that we are going--we need to see these changes in 
this period of time. If you don't do that, then we are going to 
look at the circumstances under which we place our citizens at 
risk in going back and forth and under what circumstances.
    Ms. Jayapal. Thank you, Mr. Chairman. I am actually one of 
those Indians--people of Indian descent and actually proud to 
be the first Indian-American woman here in the U.S. House of 
Representatives, and so I am looking forward to just 
understanding more about the situation with India. I think I 
know quite a bit about the treaty piece of it but in terms of 
this specific issue.
    I just wanted to go back to what you said about other 
countries being more successful in negotiating for the return 
of some of these abducted children.
    Have you found that countries have had success with the 
very countries that we are having the most challenges with? For 
example, have other countries been successful at negotiating 
real resolutions with Japan?
    Ms. Apy. My experience with Japan is that the rest of the 
countries that deal directly with Japan have the same problems 
we do.
    I've had a number of meetings with a consul general from 
other--representing other countries having these kind of 
conversations, all of which, I think, would be led by and 
encouraged by joint activity in diplomatic activity whether 
it's a joint MOU and signing on to a joint MOU, looking at 
identifying the problems and treaty reciprocity together, which 
is why it's so disheartening when you don't see the United 
States Department of State signing on with or joining in joint 
activity.
    So I would say my experiences even with countries in the 
Pacific Rim--and there are challenges there throughout the 
Asia--but we have those--we have those issues. But we've got 
the real leverage----
    Ms. Jayapal. Yes.
    Ms. Apy [continuing]. Is the issue. We have status of 
forces agreements that we regularly negotiate. We are talking 
about a disproportionate number of our military members 
involved.
    We have the ability to take leadership in that area where 
we haven't. So in that context I would say everyone's sort of 
in the same boat but we have the best leverage to be able to 
address it.
    With respect to some of the other parts of the world and 
particularly India and Pakistan, I will tell you that the U.K. 
has had a significantly better opportunity of negotiating and 
working through some of these cases than we have and they've 
been willing to, in some of these countries, enter into 
bilateral agreements that they work very hard in making sure 
work.
    And of course, as I mentioned, they--the government in that 
case provides a lot of skilled leadership in assisting those 
cases both on an individual negotiated basis as well as in 
assisting in litigation.
    Ms. Jayapal. So you mentioned in your earlier testimony 
just sort of ways that we should clarify the language, in 
particular, the categories within the report.
    What other--and Mr. Cook, thank you for your--for your 
testimony. I just--I just listen to you and it--I can't--I 
don't have any words to express how this must feel for you and 
for other families.
    I've sat with Mr. Morehouse and it's heart-breaking. So 
thank you for being here in spite of that.
    Just in terms of the specific recommendations of what we 
might push for, we can--you know, we can make amendments to the 
legislation.
    We could work on those pieces. But just in terms of 
immediate actions that if you had the magic wand and you were 
in control of the State Department tomorrow, Ms. Apy, what 
would----
    Ms. Apy. I will take a pass on that. [Laughter.]
    Ms. Jayapal. What would--maybe just this portion of it.
    Ms. Apy. Right.
    Ms. Jayapal. What would you--what would you recommend that 
Congress do to push for those actions that you think would be 
most effective?
    Ms. Apy. Well, first of all, I believe that there are 
adequate tools in this--in this act as it's written. I do not 
believe that it needs to be amended.
    I think that the problem is that there has not----
    Ms. Jayapal. You don't--you don't think that the report 
language should be clarified or----
    Ms. Apy. I think that the--I think that the act absolutely 
provides what should go in the report. I believe that the 
United States Department of State has to be--has to actually 
comply with the law as it's written and I don't believe that 
they have enthusiastically been doing that in the sense that 
they need to be, as I said, unapologetic and they need to be 
objective.
    The language is already there. I would add, however, that I 
think that there needs to be an identified process for the 
circumstances under which they must move the diplomatic 
remedies that are provided in the act from a--the lowest 
levels.
    When you have a country--I don't know whether it's the 
objective test of a country has been on in a noncompliance role 
for a year or 2 years that at that point certain things have to 
be done.
    But I have to reiterate by saying a careful reading of the 
existing law provides the test for a noncompliant country. 
They're just not applying it.
    Ms. Jayapal. Right.
    Ms. Apy. And the existing law provides the circumstances 
under which you have to move to diplomatic sanctions and 
they're not being done.
    So at some point, the mechanism is to come back and say, as 
was alluded to, do we have to then look at whether or not the 
State Department is accurately applying it and if they're not, 
put additional steps in that force them to do that, which 
seems--we have enough--the issues here are urgent.
    Time is not a neutral for these families, and the idea that 
there would be push back when you have given the State 
Department objective ladder that they can climb is 
extraordinarily frustrating. Pushing back at the 90-day report, 
for example--they have a 90-day report process.
    When the report first comes in and comments are made, they 
should come back with direct response as they're required to do 
under the act as to what steps they've taken in individual 
country cases. They're just not doing it.
    Ms. Jayapal. Thank you. I have nothing else.
    Mr. Smith. Will the gentlelady yield?
    Ms. Jayapal. Yes, I would.
    Mr. Smith. And on that point, that's why we have had so 
many hearings, not only to hear from left-behind parents and 
experts like Patricia Apy but also to try to hold them to 
account, to say listen to both spirit and letter of the law and 
just follow it, which is why, again, this year we are having 
this hearing before the report is issued.
    We will have another afterwards and then probably another 
one after that in this calendar year just to keep the pressure 
on our own people just to do the right thing.
    And but thank you. It was a great question.
    Ms. Apy. Thank you.
    Mr. Smith. And I thank you both for your testimony and for 
your leadership and, Mr. Cook, know that our prayers and hopes 
are with you and other left-behind parents.
    The hearing is adjourned.
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
